No. 20-1106

lNTBE

hpmnt C!!nurt nf tltt lttittb &tatts
JANE DOE,

Petitioner,

v.

HARVARD PILGRIM HEALTH CARE, INC. AND
THE HARVARD PILGRIM PP0 PLAN MASSACHUSETTS,
GROUP POLICY NUMBER 0588660000,

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

CERTIFICATE OF SERVICE
I, Steven L . Schreckinger, a member of the bar of this Court, hereby certify that,
on this 14th day of April, 2021, all parties required to be served have been served copies
of the Brief in Opposition in this matter by overnight courier to the address below.
PETER K. STRIS
STRIS & MAHER LLP
777 S. Figueroa Street, Suite 3850
Los Angeles, CA 90017
(213) 995-6800
pstris@stris.com

S~dwhfe?~

STEVEN L. SCHRECKINGER
ANDERSON & KREIGER LLP
50 Milk Street, 21st Floor
Boston, MA 02109
(617) 621-6500

sschreckinger@andersonkreiger.com

